WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5811

Ruth Torres

Dallas/Fort Worth International Airport Board, et al.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents.
appearance as Counsel of Record for the following respondent(s):

Please enter my

Dallas/Fort Worth International Airport Board

I am a member of the Bar of the Supreme Court of the United States.
Should a response be requested, the response

I am not presently a member of the Bar of this Court.
will be filed by a Bar member.
Signature
Date:

‘-7]—

‘

October 16, 2020
Henry S. Wehrmann
Ms.
Mr.
U
U Mrs.
Farrow-Gillespie Heath Witter LLP

(Type or print) N ame

Firm

Address

3700 Pacific Avenue, Suite 3700

City & State
Phone

Miss

Dallas, Texas 75201

(214) 361-5600

.

Z1p
Email

75201

henryfghwlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: See next page

cc:

Petitioner Pro Se:
Via Certjfied Mail, Return Receipt Requested
No. 7018 0680 0001 4136 9231
Ruth Torres
P.O. Box 224441
Dallas, Texas 75222

Trial Counsel for Pursuit of Excellence, Inc., et al.:
Via Email
C. John Scheef
Byron Henry
Anna S. Brooks
Andrea Bouressa
Scheef & Stone LLP
2600 Network Boulevard, Suite 400
Frisco, Texas 75034
Via Email
Brandy Chambers
Chambers Legal PLLC
P.O. Box 550663
Dallas, Texas 75355

